                               CLOSEOUT FOR M95060025




              On June 2, 1995, OIG was informed of an alle ation of intellectual theft stemmin

P(I-
    from an authorship dispute between two PIS,P(I-                                     4
                                                                                   1) and
                           2). PI 2 alleged that PI 1 had committed intellectual theft when he failed
    to comply with a condition of their divorce that promised her co-authorship on two papers that
    described the research of one of PI 1's former students. PI 1 and PI 2 were named PI and co-
                                                            "
                                                            d,
                                                             PI 1 was a senior faculty member in the
                                                               PI 2 was a Research Scientist at that
     institution. PI 2's position was supported by PI 1's grant funds.

         In our review of the documents we learned that the two PIS had been married and over
 a 20-year period had formed a successful research partnership in which PI 1 was the senior
 partner and laboratory head. During their partnership PI 2 progressively evolved from a
 laboratory technician into a research scientist. PI 2 received a Ph.D. in 1988 and was
 generally responsible for running the laboratory. In 1991 the two were divorced. As part of a
 settlement dividing up laboratory space, areas of research, and their separate responsibilities
 on future pro osals, the agreed on authorship on papers that might result from the
 dissertation of                      PI 1's graduate student. PI 1 was to be named as a co-
 author on one paper and PI 2 was to be named as a co-author on a second paper.

        We were informed of a number of unpleasant situations at the PIS' institution that
 occurred after the two PIS divorced and after the NSF award had closed. We concluded that
 none of these situations were related to the NSF award the two had received and were
 therefore not within our jurisdiction. The NSF award closed in 1990, the year before they
 divorced, and over 2 years before these situations developed.

         The student, a native of another country, received her Ph.D. in 1989. In 1993, she
 returned to the United States to visit PI 1 and to write two manuscripts describing her
 dissertation work. The former student decided to name PI 1 as an author on both papers and
 not to include PI 2 as an author on the second paper even though PI 2 had been named as a
 co-author on previously published abstracts describing parts of this work. The student's
 decision led to the allegation of intellectual theft by PI 2 against PI 1. The dispute between
 the two PIS eventually led their department chairman to evaluate the issues and the situation,
 which he characterized as unprofessional. He concluded that because the student held the
 copyright on the material in her dissertation she could include or exclude whomever she
 wanted as an author on papers derived from it. The student told the chairman that she felt PI
 1 intellectually contributed to her work and that her work was based on PI 1's prior work. The
 student described her work with PI 2 as colleag~iessharing the same bench. She did not think

                                         Page 1 of 2                              ~95-25
                             CLOSEOUT FOR M95060025

her work derived from PI 2's prior work and did not believe that PI 2's contributions
warranted authorship. The chairman said the student "expressed a desire to be left alone to do
her work and not required to discuss the issue of co-authorship with either of you. I strongly
suggest that both of you cease your attempts to discuss the issue with her; the decision is hers
by right and further attempts to discuss it with her could be interpreted as harassment." The
manuscripts were published in 1995 and PI 2 was not identified as a co-author. We noted that
neither paper acknowledged NSF support.

        In response to our request for information, PI 1 confirmed our independently derived
conclusions about PI 2's role and position in his laboratory. He also said that he had "yielded
to his wife's pressures" to be a co-author on all papers published by students she had assisted,
a situation he said was less than satisfactory to him or to the students. He attributed his
divorce, in part, to this situation. He provided a copy of a 1993 letter from the student that
stated that she wanted him as her sole co-author.

       He said he had failed to acknowledge NSF support because the papers were published
long after the award was closed, and from the review comments on a subsequently submitted
and declined NSF proposal he concluded that NSF "believed [his] work to be unworthy of
pursuance." He said that work on the draft manuscript relied heavily on another federal
agency's support. OIG informed him that acknowledgment of NSF support is not optional. A
poor review on a proposal or the use of another agency's funds are not reasons for failing to
acknowledge NSF's contribution to the project.

       OIG concluded that the former student's decision to name her advisor, PI 1, as her sole
co-author on papers describing results from her dissertation work was reasonable. Similarly
her decision not to name PI 2 as an author on those papers was also reasonable given her
description of PI 2's contribution to her project. The student's description was supported by
materials found in the NSF grant proposal, and statements by both PIS. PI 1's and PI 2's
settlement that allocated authorship on the former student's papers had failed to take into
account the student's opinions.

        OIG concluded there was insufficient substance to pursue further the allegation that PI
1 had committed intellectual theft when his former student decided, despite the settlement
agreement between the two PIS, not to name PI 2 as a co-author on a paper describing her
dissertation research. OIG reminded PI 1 to ensure that NSF is acknowledged in papers
describing research supported in whole or in part by NSF. OIG has closed this inquiry and
will take no further action in this case.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG



                                     Page 2 of 2
